TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Tax Exempt and Government Entities
                    Division Customers Receive Adequate
                       Service During Most Processing
                  Activities; However, Remittances May Not
                              Be Deposited Timely



                                         August 25, 2006

                              Reference Number: 2006-10-126




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                August 25, 2006


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Tax Exempt and Government Entities Division
                               Customers Receive Adequate Service During Most Processing
                               Activities; However, Remittances May Not Be Deposited Timely
                              (Audit # 200610012)

 This report presents the results of our review of whether the Tax Exempt and Government
 Entities (TE/GE) Division Customer Account Services function (hereafter referred to as the
 TE/GE CAS function) ensures quality customer service is provided during the processing of
 TE/GE Division returns, payments, letters, notices, and account management transactions.
 The TE/GE CAS function is responsible for overseeing the processing of TE/GE Division
 customer returns, which includes correcting errors that have prevented returns from posting to
 the Internal Revenue Service (IRS) Master File,1 depositing payments, and reviewing for
 accuracy and clarity the notices and letters being issued to TE/GE Division customers after
 returns are processed. Quality service is provided to customers and taxpayer burden is
 minimized through timely, accurate processing of returns, payments, notices, and letters.

 Synopsis
 Policies and procedures established by the Ogden, Utah Campus,2 in conjunction with oversight
 actions performed by the TE/GE CAS function, have ensured a sufficient level of service has

 1
   The Master File is the IRS database that stores various types of taxpayer account information. This database
 includes individual, business, and employee plans and exempt organizations data.
 2
   The Ogden Campus is in the IRS Wage and Investment Division. The campuses are the data processing arm of the
 IRS. They process paper and electronic submissions, correct errors, and forward data to the Computing Centers for
 analysis and posting to taxpayer accounts.
                      Tax Exempt and Government Entities Division Customers
                    Receive Adequate Service During Most Processing Activities;
                        However, Remittances May Not Be Deposited Timely


been provided to TE/GE Division customers during the processing of returns, letters, notices, and
other account management transactions. Specifically, we concluded the actions taken by the
TE/GE CAS function and the Ogden Campus effectively ensured:
      •    TE/GE Division customer return information was processed timely and transmitted to
           the Computing Center3 for posting to the Master File, and problems in processing
           returns were resolved timely.
      •    Notices and letters sent to TE/GE Division customers were reviewed periodically to
           improve accuracy and clarity, when warranted.
      •    Procedures were established to process timely and accurately the account management
           transactions used for adjusting TE/GE Division customer accounts and for processing
           correspondence, penalty abatements, claims, and other inquiries.
However, in the area of depositing payments, service to customers did not meet the time periods
established in IRS guidelines. Although the TE/GE CAS function has reasonable assurances that
remittances received from customers are accurately
processed, it does not have assurances they are deposited    We estimate that timely deposit of
timely. We determined 113 (27 percent) of the 417               the 113 large-dollar payments
customer payments of $50,000 or more received in the          (totaling more than $22.4 million)
                                    4                         would have resulted in additional
Ogden Submission Processing Site during the period              interest of $112,054.60 for the
October 1, 2004, through July 20, 2005, were deposited               Federal Government.
more than 4 calendar days after the earliest IRS received
date, which indicates a potential delay in the depositing
of these remittances. IRS procedures require that all remittances of $50,000 or more be
deposited by the next business day (excluding Saturdays and Sundays).

Recommendation
We recommended the Director, CAS, TE/GE Division, determine whether TE/GE Division
customer payments of $50,000 or more, that are not deposited timely, can be identified and, if so,
work with the Director, Ogden Submission Processing Site, Wage and Investment Division, to
develop methods for ensuring more timely deposits of TE/GE Division customer payments of
$50,000 or more.




3
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
4
  Submission Processing sites process paper and electronic submissions for analysis and posting to taxpayer
accounts.
                                                                                                              2
                  Tax Exempt and Government Entities Division Customers
                Receive Adequate Service During Most Processing Activities;
                    However, Remittances May Not Be Deposited Timely



Response
TE/GE Division management agreed with our recommendation to work with the Wage and
Investment Division to improve the timely processing of remittances. The TE/GE CAS function
will initiate the use of the Electronic Federal Tax Payment System for all Tax Exempt Bonds
settlement payments received in voluntary compliance and examination cases and issue an alert
to other TE/GE Divisions reiterating the importance of routing remittances to the Ogden Campus
in an expeditious manner. TE/GE Division management was informed by the Wage and
Investment Division that it would be cost prohibitive for a report to be developed that would
distinguish TE/GE remittances from customers of other IRS business divisions. Management’s
complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or Nancy
Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




                                                                                             3
                         Tax Exempt and Government Entities Division Customers
                        Receive Adequate Service During Most Processing Activities;
                           However, Remittances May Not Be Deposited Timely




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Adequate Customer Service Is Provided to Tax Exempt and
          Government Entities Division Customers During the Processing
          of Their Returns, Letters, Notices, and Account Management
          Transactions ..................................................................................................Page 3
          Remittances Were Processed Accurately but May Not Have Been
          Deposited Timely..........................................................................................Page 6
                    Recommendation 1:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Outcome Measure ................................................................Page 13
          Appendix V – Management’s Response to the Draft Report .......................Page 14
                      Tax Exempt and Government Entities Division Customers
                     Receive Adequate Service During Most Processing Activities;
                        However, Remittances May Not Be Deposited Timely




                                            Background

The mission of the Tax Exempt and Government Entities (TE/GE) Division is to provide
customers top-quality service by helping them to understand and comply with applicable tax
laws and to protect the public interest by applying the tax law with integrity and fairness to all.
The TE/GE Division Customer Account Services (CAS) function (hereafter referred to as the
TE/GE CAS function) offers assistance to customers of the various TE/GE Division offices:
Employee Plans, Exempt Organizations, and Government Entities. The TE/GE CAS function is
responsible for overseeing the processing of TE/GE Division customer returns by the Wage and
Investment (W&I) Division. The processing involves several steps, including correcting errors
that have prevented returns from posting to the Internal Revenue Service (IRS) Master File,1
depositing payments, and reviewing for accuracy and clarity notices and letters being issued to
TE/GE Division customers after returns are processed. The TE/GE CAS function seeks to
ensure quality service is provided to customers and taxpayer burden is minimized through
timely, accurate processing of returns, payments, notices, and letters.
TE/GE Division customer returns are processed by the Ogden Campus2 in Ogden, Utah, which is
part of the W&I Division. Because there are two business divisions involved, there is a Service
Level Agreement between the W&I and TE/GE Divisions. Under the Service Level Agreement,
the W&I Division is responsible for processing submissions accurately and timely, monitoring
performance, and notifying the TE/GE CAS function of problems. The TE/GE CAS function’s
staff has program oversight responsibility; they work with W&I Division personnel to ensure
submissions are processed accurately and timely and to assist W&I Division personnel in
striving for continuous improvement in customer satisfaction, employee satisfaction, and
business results.
In addition to the Service Level Agreement, the W&I Division established business results
measures for Submission Processing site functions. The purpose of the Submission Processing
Business Results Measures program is to collect data that will provide a basis for measuring and
improving work products by:
    •   Identifying sources of errors from processing systems, procedural instructions, and
        campus and taxpayer action or inaction.
    •   Identifying and analyzing defect trends.

1
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
2
  The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                           Page 1
                      Tax Exempt and Government Entities Division Customers
                     Receive Adequate Service During Most Processing Activities;
                        However, Remittances May Not Be Deposited Timely



    •   Recommending and submitting corrective action.
    •   Following up with reviews to ensure the corrective action was effective.
The W&I Division Ogden Accounts Management Site (OAMS) in part plans, directs, manages,
and executes activities specific to management of customer accounts and is responsible for all
Exempt Organizations, Tax Exempt Bonds, and Employee Plans office customer accounts.
OAMS management is responsible for monitoring the processing area for recurring problems,
initiating a Quality Analysis3 when appropriate, and meeting required time periods. OAMS
management is required to report to the TE/GE CAS function analysts any problems in meeting
time periods and the results of all Quality Analysis reviews.
This review was performed at the TE/GE CAS function office and the Ogden Campus located in
Ogden, Utah, where most of the TE/GE Division customer returns and account management
transactions were processed, during the period December 2005 through June 2006. The audit
was conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




3
 A Quality Analysis is an appraisal of an operation or process to determine and report on whether it is functioning
properly and whether it is conforming to established procedures or to determine the core cause of quality problems.
                                                                                                            Page 2
                     Tax Exempt and Government Entities Division Customers
                    Receive Adequate Service During Most Processing Activities;
                       However, Remittances May Not Be Deposited Timely




                                    Results of Review

Adequate Customer Service Is Provided to Tax Exempt and
Government Entities Division Customers During the Processing of
Their Returns, Letters, Notices, and Account Management
Transactions
Policies and procedures established by the Ogden Campus, in conjunction with oversight actions
performed by the TE/GE CAS function, have ensured a sufficient level of service has been
provided to TE/GE Division customers during the processing of returns, letters, notices, and
other account management transactions. Consistent with the Service Level Agreement
established with the TE/GE Division, the Ogden Campus ensured submissions from TE/GE
Division customers were processed accurately and timely. We did not evaluate the efficiency of
the Ogden Campus, which is managed by the W&I Division.
Specifically, we concluded the actions taken by the TE/GE CAS function and the Ogden Campus
effectively ensured:
      •   TE/GE Division customer return information was processed timely and transmitted to
          the Computing Center4 for posting to the Master File, and problems in processing
          returns were resolved timely.
      •   Notices and letters sent to TE/GE Division customers were reviewed periodically to
          improve accuracy and clarity, when warranted.
      •   Procedures were established to process timely and accurately the account management
          transactions used for adjusting TE/GE Division customer accounts and for processing
          correspondence, penalty abatements, claims, and other inquiries.
We identified one area, depositing payments, in which service to customers did not meet the time
periods established in IRS guidelines. This issue is presented later in the report.




4
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
                                                                                                      Page 3
                      Tax Exempt and Government Entities Division Customers
                     Receive Adequate Service During Most Processing Activities;
                        However, Remittances May Not Be Deposited Timely



TE/GE Division customer return information was processed timely and posted to
the Master File
The Ogden Submission Processing Site (OSPS)5 timely processed and transmitted return
information for TE/GE Division customers to the IRS Business Master File.6 The timeliness of
return information processing is assessed by determining whether timely filed and error-free
returns have completed OSPS processing and been transmitted for posting to customers’ Master
File accounts before a predetermined date, known as the Program Completion Date.
We analyzed processing statistics for 1,740,081 TE/GE Division customer returns processed
between October 1, 2004, and July 21, 2005, and determined 1,733,752 (99.6 percent) were
successfully processed by the OSPS. The remaining 6,329 TE/GE Division customer returns had
not completed processing by the Program Completion Date. In these instances, the IRS posted a
transaction to the customer’s account indicating the filing requirement had been satisfied, which
prevented the issuance of any notices or systemically generated correspondence to the customer
requesting that a return be filed.
One reason the OSPS has been able to meet the Program Completion Date consistently is the
ability of TE/GE CAS function analysts to effectively work with the W&I Division to
continually improve the quality of customer service during the processing of TE/GE Division
customer returns. For example, in January 2006, TE/GE CAS function program analysts made
significant changes to programs involving political organizations. These improvements were
designed to improve accuracy and to enhance efforts for ensuring political organizations comply
with applicable laws and regulations.
The TE/GE CAS function also took effective corrective actions as a result of prior audits
performed by the Treasury Inspector General for Tax Administration. Specifically, one audit7
found additional actions were needed in the TE/GE CAS function’s oversight of the OSPS Error
Resolution System to reduce the burden on TE/GE Division customers. Technicians from the
OSPS Error Resolution unit compare problem returns with a report generated by the Error
Resolution System to attempt to correct specific types of errors that are made by either the
customer or another OSPS operation. As part of the prior audit, we recommended the Director,
CAS, TE/GE Division, establish procedures to review certain correspondence cases. The
Director agreed and also initiated actions to develop a unique TE/GE Division aged inventory
report to increase the TE/GE CAS function’s ability to monitor over-age error returns. Based on
analysis of the actions taken by the TE/GE CAS function to reduce over-age inventory, we

5
  Submission Processing sites process paper and electronic submissions for analysis and posting to taxpayer
accounts.
6
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
7
  The Tax Exempt and Government Entities Division Ensures Reject Procedures Are Current, but Increased
Controls and Analysis May Reduce Customer Burden (Reference Number 2004-10-177, dated September 2004).
                                                                                                           Page 4
                     Tax Exempt and Government Entities Division Customers
                    Receive Adequate Service During Most Processing Activities;
                       However, Remittances May Not Be Deposited Timely



believe taxpayer burden for customers has been reduced because errors are being resolved and
returns are being posted to the Master File more quickly.
Another Treasury Inspector General for Tax Administration audit8 determined the TE/GE CAS
function needed to improve the monitoring of TE/GE Division customer return inventories in the
OSPS unpostable unit. Customer returns are routed to the OSPS unpostable unit when there is a
problem posting information to the Master File. The Director, CAS, indicated TE/GE Division
analysts would use reports generated by the OSPS unpostable unit to monitor inventories of
returns for TE/GE Division customers and alert the OSPS when a potential unmanageable
condition existed. Based on analysis of the actions taken by the TE/GE CAS function since the
prior audit, we believe taxpayer burden has been reduced by the timely correction of problems
associated with posting return information to the Business Master File.

Notices and letters sent to TE/GE Division customers were reviewed periodically
to improve accuracy and clarity
The OSPS and TE/GE CAS function have established review processes to assure the accuracy
and clarity of notices sent to TE/GE Division customers. Specifically, the TE/GE CAS function
established a process to periodically review notices and letters sent to TE/GE Division customers
and make suggestions to clarify or improve the quality when warranted. The TE/GE CAS
function also periodically reviews processes for generating notices and suggests improvements
that may improve the consistency or result in processing efficiencies. Also, the W&I Division
established measures to address the quality of letters and notices issued to all types of IRS
customers, including TE/GE Division customers.
The IRS established procedures that require an error rate be determined by reviewing statistical
samples of notices and letters. Letters and notices issued to TE/GE Division customers were
included in these samples, and staff from the OSPS Program and Analysis Section took the
necessary actions to correct discovered errors. The measures used to evaluate notices and letters,
as well as the oversight provided by the TE/GE CAS function and the procedures used by the
OSPS to correct identified errors, provide reasonable assurance that quality customer service is
provided during the processing of TE/GE Division customer letters and notices.

Procedures were established to process timely and accurately the account
management transactions for TE/GE Division customers
Transactions to TE/GE Division customer accounts were processed timely and accurately by the
OAMS. The IRS established procedures to have all Exempt Organizations, Tax Exempt Bonds,
and Employee Plans office account-related issues and correspondence worked by the


8
 Additional Emphasis Is Needed to Reduce the Burden for Tax Exempt and Government Entities Division
Customers During Returns Processing (Reference Number 2003-10-204, dated September 2003).
                                                                                                      Page 5
                  Tax Exempt and Government Entities Division Customers
                 Receive Adequate Service During Most Processing Activities;
                    However, Remittances May Not Be Deposited Timely



Account Resolution Section of the OAMS. Some of the account issues worked in the OAMS
include:
   •   Processing Exempt Organizations office tax and penalty adjustments.
   •   Resolving Tax Exempt Bonds office inquiries.
   •   Processing Exempt Organizations, Employee Plans, and Tax Exempt Bonds office
       claims.
   •   Routing Employee Plans Master File correspondence.
OAMS management is responsible for monitoring processing operations for recurring problems,
initiating a Quality Analysis when appropriate, and meeting predetermined time periods for
processing account-related items. If a problem is identified, OAMS management is required to
report the problem to the TE/GE CAS function on the same business day.
The IRS established timeliness standards for processing account management transactions
(e.g., a maximum of 45 calendar days for transactions initiated by customers and a maximum of
75 calendar days for internally generated adjustment transactions). During October 1, 2004,
through July 21, 2005, there were 269,421 account management transactions generated to the
accounts of TE/GE Division customers and the average time to complete each transaction was
21.1 days. The low number of days required to complete the account management transactions,
along with the oversight provided by the TE/GE CAS function and the procedures used by the
OAMS to monitor processing operations, provide reasonable assurance that TE/GE Division
customers are receiving sufficient service during the processing of account maintenance
transactions.

Remittances Were Processed Accurately but May Not Have Been
Deposited Timely
Although the TE/GE CAS function has reasonable assurances that remittances received from
customers are accurately processed, it does not have assurances they are deposited timely. The
accuracy of remittance processing is measured by determining whether remittances are correctly
recorded on the customers’ Business Master File accounts. Inaccuracies are recorded on an error
report and the cause of each error is determined. Analysts from the OSPS then initiate corrective
actions based on the cause of each error.
Because remittances from TE/GE Divisions customers are combined with those from other
customers serviced by the OSPS, we reviewed records maintained by the OSPS Program and
Analysis Section staff and determined whether remittances from TE/GE Division customers
were included in the samples. We noted no deposit errors were identified for TE/GE Division
payments during the period October 1, 2004, through December 31, 2005, indicating remittances
received from TE/GE Division customers were generally processed accurately.
                                                                                          Page 6
                     Tax Exempt and Government Entities Division Customers
                    Receive Adequate Service During Most Processing Activities;
                       However, Remittances May Not Be Deposited Timely



However, the TE/GE CAS function does not have reasonable assurances that remittances are
deposited timely. The W&I Division Customer Account Services Submission Processing Report
for Fiscal Year (FY) 2005 indicated the OSPS did not achieve its goal for deposit timeliness
during April through September 2005. In addition, the FY 2006 report indicated the goal was
not met for the period November 2005 through February 2006. OSPS Program and Analysis
Section analysts are responsible for assessing the timeliness of deposit activity by reviewing a
report that identifies all remittances processed by the Integrated Submission and Remittance
Processing System9 that are not deposited within 1 business day.
Management for the OSPS Program and Analysis Section advised us no distinction is made
between remittances received from TE/GE Division customers and remittances received from
customers of other IRS business divisions, indicating that remittances for all business division
customers may have been deposited late. Although the OSPS reports do not separately identify
TE/GE Division customer remittances, TE/GE Division customer accounts are identifiable on the
Business Master File. We analyzed 130,416 TE/GE Division customer payments received
during the period October 1, 2004, through July 21, 2005, and determined 10,005 (7.7 percent)
were deposited more than 6 calendar days after the earliest IRS received date, which indicates a
potential delay in the depositing of remittances. These potential late deposits totaled
approximately $33 million and ranged from approximately $1.00 to over $3 million. We did
additional research on a sample of these deposits and confirmed deposits were delayed between
1 to 162 calendar days for the sampled remittances.
IRS procedures state the deposit of the largest amount of money must be made in the shortest
possible time, to achieve good cash management practices. The general rule is 90 percent of the
remittances that do not require additional research must be deposited by the next business day.
During peak periods or when the remittances in the deposit function exceed the deposit capacity,
the deposit cycle may be extended to 2 business days. However, the extended deposit cycles
must not exceed 5 business days.
Additionally, we determined that 417 of the 130,416 customer payments received in the OSPS
during the period October 1, 2004, through July 20, 2005, were for $50,000 or more and that
113 (27 percent) of the 417 were deposited more than 4 calendar days after the earliest IRS
received date, which indicates a potential delay in the depositing of these remittances. IRS
procedures require that all remittances of $50,000 and over be deposited by the next business day
(excluding Saturdays and Sundays), even during peak periods. We estimate that timely deposit
of the 113 large-dollar payments (totaling more than $22.4 million) would have resulted in
additional interest of $112,054.60 for the Federal Government.



9
 The Integrated Submission and Remittance Processing System transcribes and formats data from paper returns,
documents, or vouchers for input by key entry operators. It also captures check images for archiving.
                                                                                                        Page 7
                     Tax Exempt and Government Entities Division Customers
                    Receive Adequate Service During Most Processing Activities;
                       However, Remittances May Not Be Deposited Timely



In a separate audit,10 we determined whether Tax Exempt Bonds office management ensured
payments received in settlement of closing agreements11 were processed timely and accurately to
the appropriate customer accounts. That audit identified extensive delays in the processing of
remittances by either the Tax Exempt Bonds office or the OSPS, including delays in depositing
large-dollar remittances totaling approximately $11 million.
Because the OSPS deposit timeliness reports do not distinguish TE/GE Division customer
payments from those of other IRS customers, the TE/GE CAS function is unable to provide
sufficient oversight of deposit timeliness for TE/GE Division customers to ensure its customers
receive quality service. Separate identification of TE/GE Division customers on deposit
timeliness reports would enable the TE/GE CAS function to alert the call site providing service
to TE/GE Division customers when deposits are persistently delayed due to large volumes, to
identify the causes for lengthy delays, and to assess whether changes are needed to policies
and/or procedures.

Recommendation
Recommendation 1: The Director, CAS, TE/GE Division, should determine whether
TE/GE Division customer payments of $50,000 or more that are not deposited timely can be
identified and, if so, work with the Director, OSPS, Wage and Investment Division, to develop
methods for ensuring more timely deposits of TE/GE Division customer payments of $50,000 or
more.
        Management’s Response: The TE/GE CAS function will work with the W&I
        Division to improve the timely processing of remittances. TE/GE CAS function
        management will initiate the use of the Electronic Federal Tax Payment System for all
        Tax Exempt Bonds settlement payments received in voluntary compliance and
        examination cases and issue an alert to other TE/GE Divisions reiterating the importance
        of routing remittances to the Ogden Campus in an expeditious manner. TE/GE Division
        management was informed by the W&I Division that it would be cost prohibitive for a
        report to be developed that would distinguish TE/GE remittances from customers of other
        IRS business divisions.




10
   Insufficient Controls Resulted in Significant Delays in Depositing Tax-Exempt Bond Payments and Unreliable
Payment Posting Dates (Audit # 200610009).
11
   This program provides an opportunity for State and local government issuers and other parties to a bond
transaction to voluntarily come forward to resolve violations of the Internal Revenue Code with the IRS.
                                                                                                         Page 8
                      Tax Exempt and Government Entities Division Customers
                     Receive Adequate Service During Most Processing Activities;
                        However, Remittances May Not Be Deposited Timely



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to assess whether the Tax Exempt and Government
Entities (TE/GE) Division Customer Account Services (CAS) function (hereafter referred to as
the TE/GE CAS function) ensures quality customer service is provided during the processing of
TE/GE Division returns, payments, letters, notices, and account management transactions. To
accomplish our objective, we:
I.      Interviewed TE/GE CAS function personnel and reviewed applicable documents to
        determine whether quality customer service is provided during the processing of TE/GE
        Division customer returns and payments. Specifically, we:
        A. Determined when actual production differed from production standards for TE/GE
           Division customer returns and whether production standards for TE/GE Division
           customer returns were met more or less frequently than they were for other IRS
           business division customer returns processed at the Ogden Campus.1 We also
           determined whether TE/GE CAS function analysts determined the reasons production
           standards were not achieved and implemented actions to improve processing.
        B. Determined the number of TE/GE Division customer returns processed at each
           Submission Processing site during the period October 1, 2004, through July 21, 2005,
           and whether the average time from received date to Master File2 posting date differed
           from the average of all returns processed at the Ogden Campus. We also determined
           whether issues that affected the processing of TE/GE Division customer returns were
           identified and actions to resolve the conditions were implemented timely.
        C. Analyzed whether the sample used to determine the Ogden Submission Processing
           Site3 Deposit Timeliness or Deposit Error Rate included any TE/GE Division


1
  The Ogden Campus is in the Internal Revenue Service (IRS) Wage and Investment Division. The campuses are
the data processing arm of the IRS. They process paper and electronic submissions, correct errors, and forward data
to the Computing Centers for analysis and posting to taxpayer accounts.
2
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data. We assessed the reliability of the
IRS Business Master File (the IRS database that consists of Federal tax-related transactions and accounts for
businesses, including employment taxes, income taxes on businesses, and excise taxes) by performing electronic
testing of required data elements and reviewing existing information about the data and the system. We determined
the data were sufficiently reliable for the purposes of this review.
3
  Submission Processing sites process paper and electronic submissions for analysis and posting to taxpayer
accounts.
                                                                                                           Page 9
                  Tax Exempt and Government Entities Division Customers
                 Receive Adequate Service During Most Processing Activities;
                    However, Remittances May Not Be Deposited Timely



          customer accounts, the cause of any error or untimely deposit was determined, and
          any actions were implemented. For Fiscal Year (FY) 2005 and the first quarter of
          FY 2006, we also determined whether payment processing problems were identified
          and resolved timely, any trends were identified, and actions were taken to address
          specific trends.
II.    Interviewed TE/GE CAS function personnel and reviewed applicable documents to
       determine whether quality customer service is provided during the processing of TE/GE
       Division customer letters and notices. Specifically we:
       A. Analyzed the Letter Error Rate for the Ogden Submission Processing Site during
          FY 2005 and the first quarter of FY 2006 to determine whether the sample included
          any TE/GE Division customer accounts. We also determined whether the cause of
          any error was identified, corrective actions were implemented, and problems with
          TE/GE Division customer letters were identified and resolved timely.
       B. Analyzed the Notice Error Rate for the Ogden Submission Processing Site during
          FY 2005 and the first quarter of FY 2006 to determine whether the sample included
          any TE/GE Division customer accounts. We also determined whether the cause of
          any error was identified, corrective actions were implemented, and problems with
          TE/GE Division customer notices were identified and resolved timely.
III.   Interviewed TE/GE CAS function personnel and reviewed applicable documents to
       determine whether quality customer service is provided during the processing of TE/GE
       Division customer account management transactions. Specifically we:
       A. Determined the total number of TE/GE Division customer accounts resolved during
          Calendar Year 2005. We also compared the Customer Account Resolution
          Productivity for the Ogden Submission Processing Site Employee Plans and Exempt
          Organizations office account units for FY 2005 and the first quarter of FY 2006 with
          the productivity for adjustments processed by the Ogden Accounts Management Site
          for other IRS business division customers.
       B. Determined whether problems with customer account productivity for TE/GE
          Division customers were identified and resolved timely, any trends were identified,
          and actions were taken to address specific trends.
IV.    Reviewed prior Treasury Inspector General for Tax Administration audit reports, TE/GE
       Division Customer Satisfaction Surveys, and IRS toll-free telephone operation site
       reports to determine whether processing issues regarding the quality of customer service
       were identified and whether TE/GE Division management implemented corrective
       actions to improve processing of TE/GE Division customer returns.



                                                                                        Page 10
                  Tax Exempt and Government Entities Division Customers
                 Receive Adequate Service During Most Processing Activities;
                    However, Remittances May Not Be Deposited Timely



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Jeffrey M. Jones, Acting Director
James Westcott, Audit Manager
Gregory Holdeman, Lead Auditor
Donald Martineau, Auditor
Carol Rowland, Auditor




                                                                                      Page 11
                 Tax Exempt and Government Entities Division Customers
                Receive Adequate Service During Most Processing Activities;
                   However, Remittances May Not Be Deposited Timely



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Tax Exempt and Government Entities Division
SE:T:CAS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 12
                      Tax Exempt and Government Entities Division Customers
                     Receive Adequate Service During Most Processing Activities;
                        However, Remittances May Not Be Deposited Timely



                                                                                                Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $112,054.60 (see page 6).

Methodology Used to Measure the Reported Benefit:
We analyzed the Internal Revenue Service (IRS) Business Master File1 and determined there
were 130,416 Tax Exempt and Government Entities Division customer payments received
during the period October 1, 2004, through July 21, 2005. There were 417 customer payments of
$50,000 or more; 113 (27 percent) of these payments were deposited more than 4 calendar days
after the earliest IRS received date, which indicates a potential delay in the depositing of these
remittances. IRS procedures state all remittances of $50,000 or more must be deposited by the
next business day (excluding Saturdays and Sundays). During peak periods, all attempts must be
made to deposit these items the day the payment is removed from the envelope or no later than
the next business day.
We calculated the amount of potential interest lost for each of the 113 potentially late deposits by
multiplying the amount of the deposit by the standard interest rate for deposit timeliness
(8 percent). The result was divided by 365 calendar days and multiplied by the number of days
late (any days beyond the 4 calendar days allowed). The formula is as follows:
([Amount of payment] X [8 percent interest2]/[365 calendar days]) X [Days deposit late] =
increased revenue from interest earned.
We determined these potentially late deposits totaled $22,457,236.00; their timely deposit could
have increased revenue based on additional interest earned of $112,054.60.




1
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
2
  IRS procedures establish a constant 8 percent interest rate for deposit timeliness calculations.
                                                                                                           Page 13
     Tax Exempt and Government Entities Division Customers
    Receive Adequate Service During Most Processing Activities;
       However, Remittances May Not Be Deposited Timely



                                                    Appendix V


Management’s Response to the Draft Report




                                                          Page 14
 Tax Exempt and Government Entities Division Customers
Receive Adequate Service During Most Processing Activities;
   However, Remittances May Not Be Deposited Timely




                                                      Page 15
